No. 19-2
IN THE

fipupretue Court of the Viluiteb iptate5
JACKIE HOSANG LAWSON,

Petitioner,
v.
FMR LLC,

et al.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

REPLY BRIEF FOR PETITIONER

JACKIE HOSANG LAWSON, Pro Se
27 Kilsyth Road
Brookline, MA 02445
(617) 739-4088
Jackielaw88@comcast.net

Dated: August 08, 2019
BATEMAN & SLADE, INC.

STONEHAM, MASSACHUSETTS

RULE 14.1(b)(iii) STATEMENT
A LIST OF ALL PROCEEDINGS IN FEDERAL
COURT, THAT ARE DIRECTLY RELATED TO
THE CASE IN THIS COURT
RICO CLASS ACTION COMPLAINT — Filed on
MAY 31, 2019, in The United States District Court —
District of Massachusetts.
CASE DOCKET NO. 1:19-cv-11222-DPW
CASE CAPTION — JACKIE HOSANG LAWSON, on
behalf of herself and all others similarly situated,
Plaintiff v. FMR LLC, dba FIDELITY
INVESTMENTS, FMR CORP., dba FIDELITY
INVESTMENTS, and FIDELITY BROKERAGE
SERVICES LLC, dba FIDELITY INVESTMENTS,
Defendants.

[This page is intentionally left blank.]

ii

TABLE OF CONTENTS
RULE 14.1 (b) (iii) STATEMENT
TABLE OF AUTHORITIES

iv

ARGUMENT

1

THE LOWER COURTS'
JUDGMENT IF ALLOWED TO
STAND UNDERMINES THE
COURT'S HOLDING IN
LAWSON — THIS APPEAL
PRESENTS AN IMPORTANT
OPPORTUNITY FOR LAW
CORRECTION

1

THIS CASE DEEMED IN 2014
TO BE IMPORTANT TO THE
GENERAL PUBLIC IS THE
IDEAL VEHICLE FOR
CORRECTING AN EGREGIOUS
ERROR THAT IMPACTS
MILLIONS OF MUTUAL FUND
SHAREHOLDERS

3

THIS IS THE BEST FORUM TO
ADDRESS THE
DEGRADATION OF
DEMOCRACY AND
VIOLATION OF
CONSTITUTIONAL RIGHTS
WHICH TRIGGERED THIS
CASE

5

CONCLUSION

12

iii

TABLE OF AUTHORITIES
CASES:
DeGuelle v. Camilli,
664 F.3d 192 (2011)

10, 11

Lawson v. FMR LLC,
571 U.S. 429 (2014)

passim

STATUTES:
18 U.S.C. § 1512
18 U.S.C. § 1514A

9, 10
1

iv

ARGUMENT
I.

THE LOWER COURTS' JUDGMENT IF
ALLOWED TO STAND UNDERMINES THE
COURTS HOLDING IN LAWSON -THIS
APPEAL PRESENTS AN IMPORTANT
OPPORTUNITY FOR LAW CORRECTION

Fidelity errs in their insistence that "Both
courts below applied the correct legal standards to
the facts of this particular case." Opp. Page 6. This
misstatement is discordant with the Court's ruling
in Lawson v. FMR LLC, 571 U.S. 429 (2014); there is
a disconnection between the wide latitude given by
the Court in Lawson, and the construction of the two
deciding questions on the jury slip.
The construction of section 806 of SarbanesOxley in Lawson; the late Justice Scalia in
particular, held:
"So long as an employee works for one of the
actors enumerated in § 1514A(a) and reports a
covered form of fraud in a manner identified
in § 1514(a)(1)-(2), the employee is protected
from retaliation."
Lawson at 461. Emphasis added.
Fidelity does not dispute that Ms. Lawson
reported claims of securities fraud first to her
supervisors, then Fidelity's General Counsel, and
ultimately to the Department of Labor, and The
Securities Exchange and Commission. Fidelity also,
does not dispute that they retaliated against Ms.
Lawson.
Fidelity, instead, asserts that "as predicates to
her whistleblower claim, petitioner bore the burden
1

of proving that she had both a subjective and an
objective reasonable belief that the conduct she
reported to her superiors constituted a violation of
federal law." Opp. Page 2. Emphasis added.
Consistent with Fidelity's assertion in their
opposition, the two deciding questions to the lay jury
"Has Ms. Lawson proven by a preponderance of the
evidence she had (1) an actual subjective belief, and
(2) an objectively reasonable belief, that Fidelity's
conduct could constitute violation of Federal law
relating to fraud against Fidelity's Mutual Fund
shareholders," place emphasis on proving the fraud
as the major determinant of the merits of the case,
versus the reporting of the fraud, and the ensuing
retaliation; the gravamen of Lawson's section 806
Sarbanes-Oxley complaint.
Exhaustive debates on the applicable legal
standards of Sarbanes-Oxley after the Court's ruling
on Lawson in 2014, dominated the Lawson litigation
process, and tainted the trial. Considering the
significant amount of resources expended on this
contentious issue, this appeal poses an important
opportunity for law correction, since this issue most
likely will impact all future litigation of SarbanesOxley section 806 cases.
The issue at hand, and a matter of great
importance to all future whistleblower claimants
under section 806 of SOX, is whether the fraud issue
in a Sarbanes-Oxley claim, must be a reported
"covered form of fraud," as held by Justice Scalia, or
must be a proven "covered form of fraud" as
demanded by the two deciding questions on the jury
slip, in order for any whistleblower; not just Ms.
Lawson, to prevail on the merits of their cases.

2

Highlighting the "egregious error" of the lower
courts; If this Court accepts the postulate that the
District Court and the First Circuit Court of Appeals
applied the correct legal standard that the "covered
form of fraud" that Ms. Lawson reported, must be
proven, instead of merely reported, then clearly it is
apparent that the lay jury should have received
guidance regarding what constitutes violation of
securities laws governing the mutual fund industry,
either by her expert witness, Professor Mercer E.
Bullard, or the District Court, so that the jury could
intelligently, and accurately, answer questions on
what "conduct could constitute violation of Federal
law relating to fraud against Fidelity's Mutual Fund
shareholders."
II.

THIS CASE DEEMED IN 2014 TO BE OF
GREAT IMPORTANCE TO THE GENERAL
PUBLIC IS THE IDEAL VEHICLE FOR
CORRECTING AN EGREGIOUS ERROR
THAT IMPACTS MILLIONS OF MUTUAL
FUND SHAREHOLDERS

Fidelity also errs that "The fact-bound
conclusion that petitioner's proposed expert was
properly excluded raises no legal or other issue of
general importance; indeed, it is unlikely to affect
any litigant but her" Opp. Page 6, and that: "At
bottom, petitioner's first question presents nothing
of interest to anyone besides the parties to this case."
Opp. Page 10.
Contrary to Fidelity's assertions, millions of
Fidelity Mutual Fund shareholders are related
parties, and will be greatly affected by the decision of
the Court.

3

Fidelity would have the Court believe that
this case applies only to one litigant, when in fact it
applies to millions of Fidelity Investments' mutual
fund shareholders defrauded by Fidelity through the
operation of a Mass-Marketing Fraud.
Fidelity admitted to this wrong-doing. Fidelity
acknowledged the impact of charging excessive
account servicing fees in a May 07, 2008,
"MEMORANDUM IN SUPPORT OF MOTION TO
DISMISS BY DEFENDANTS FMR LLC AND
FIDELITY BROKERAGE SERVICES LLC."
"Sarbanes-Oxley was intended to address
fraud by public companies against their
shareholders. In this case, there is no
allegation of fraud by a public. company. On
the contrary, what Lawson evidently intends
to allege is, at most, that a subcontractor
exaggerated its costs in a manner that caused
a public company — the Funds — to overpay for
the subcontractor's services. Self-evidently,
however, "shareholder fraud" does not include
overcharging a public company on a contract,
even if that overcharge ultimately affects the value
of shareholders' holding." Emphasis added.
Ms. Lawson, in her claims, promulgated
Fidelity's surface offense; charging excessive
servicing fees. Fidelity, by fleshing out the impact of
charging excessive service fees, acknowledges
Fidelity's knowing duplicity towards their
shareholders, which is a well acknowledged fact in
the mutual fund industry; the adverse impact of
excessive fees on long-term investor returns.

4

Fidelity's lack of concern in acknowledging the
alleged fraud on their shareholders occurred because
Fidelity's primary objective in 2008 was evading
coverage under SOX, using their status as a
privately-held subcontractor company to "the Funds"
as a shield for impunity.
Six years later, the Court's 2014 Lawson
ruling of SOX coverage to the privately-held Fidelity
companies, removed the shield, and paved the path
for the Petitioner to file a RICO Class Action
Complaint against Fidelity on May 31, 2019. See
Rule 14.1 (b) (iii) Statement, page i.
On July 12, 2019, Fidelity filed a Rule 12(b)(6)
motion to dismiss the RICO Class Action Complaint,
stating as grounds, inter alia, "the doctrine of claim
preclusion" citing the Lawson case currently on
appeal in this Court.
Lawson's appeal to the Court is of great
importance to the viability of the RICO Class Action
Complaint, which inter alia, asks for injunctive relief
to stop Fidelity's admitted wrong-doing, and provide
restitution to the millions of Fidelity mutual funds
shareholder injured by Fidelity's fraudulent business
practices.
III. THIS COURT IS THE BEST FORUM TO
ADDRESS THE DEGRADATION OF THE
UNITED STATES DEMOCRACY AND THE
VIOLATION OF CONSTITUTIONAL
RIGHTS THAT TRIGGERED THIS CASE
Shockingly, Fidelity attempts to deceive the
Court, and in a continued pattern of lack of candor,
makes untruthful and incorrect statements
regarding "the discussion of attorneys' fees in the
5

body of the petition." Opp. Page 14. Fidelity states
that Ms. Lawson forfeited her attorney fees "since
the factual and legal points presented in this part of
the petition were not made by the petitioner in
either the district court or the court of appeals."

First, Fidelity's interference into a scheduled
government investigation was included in the
Amended Complaint filed on September 19, 2008, as
complaint numbers 20 and 21.
Complaint Number 20 states:
"On or about November 26, 2007, Ms.
Lawson's counsel received notice from the
Associate Solicitor, Division of Fair Labor
Standards, United States Department of
Labor, that Fidelity Investments had been in
contact with the office regarding Ms. Lawson's
Sarbanes-Oxley complaint. Ms. Lawson's
counsel subsequently was provided copies of
two letters submitted on Fidelity Investments
behalf by its outside counsel in an effort to
stop OSHA's investigation of Ms. Lawson's
complaint. The first letter, dated September
13, 2007, was addressed to the head of the
Office of the Whistleblower Protection
Program of the Occupational Safety and
Health Administration, and references an
August 30, 2007 telephone conversation
between Fidelity Investments' outside counsel
and the Head of the Office of the
Whistleblower Protection Program. The
second letter, dated November 1, 2007, was
addressed to the head of the Office of the
Whistleblower Protection Program at the
Occupational
Safety
and
Health
Administration, the Associate Solicitor, Fair
6

Labor Standards, Office of the Solicitor of
Labor, and the Counsel for Whistleblower
Programs, and referenced an October 19, 2007
meeting between the addresses and Fidelity
Investments' outside counsel.
Complaint Number 21 states:
On December 20, 2007, Ms. Lawson submitted
to the Associate Solicitor, Division of Fair
Labor Standards, United States Department
of Labor, her response to Fidelity's letter. Ms.
Lawson's response is attached hereto as
Exhibit 5."
Exhibit 5 in the amended complaint is a
twelve-page letter to the Associate Solicitor in which
Jackie Hosang Lawson, Eugene Scalia, Esq. and
others were copied. The letter points out that
`Fidelity Investments' lack of candor — particularly
in an ex pa.rte communication —is stunning."
The Letter's "Conclusion" states:
Ms. Lawson attempted here what Congress
hoped for in passing Sarbanes-Oxley. As an
insider with information concerning possible
fraud against shareholders of Fidelity
Investments, she attempted to bring her
concerns to her supervisors, Fidelity's General
Counsel and to the Securities and Exchange
Commission. She had an unblemished record
of over a decade of service to Fidelity
Investments when she took these steps. When
Fidelity Investments began retaliating, she
sought help from OSHA. A year later,
however, she has been forced out of her
position, and Fidelity Investments has
7

successfully avoided any substantive
investigation of her claim. At this juncture, on
her behalf, I respectfully request that OSHA
continue its investigation and afford her the
protection promised by Congress."
Second, Ms. Lawson requested a de novo
review that was ignored by the First Circuit. Her
Reply Briefs "STATEMENT OF FACTS:"
"On September 20, 2007, OSHA
contacted Fidelity's counsel regarding
interviews with various people
associated with Lawson's Claims."
"Fidelity's external counsel, and
insiders, had ex-parte communications
with the Department of Labor in
Washington, D.C."
"Shortly after, supra, the OSHA
scheduled investigation was put on hold
indefinitely."
Ms. Lawson provided substantive supporting
documents in her Appendix and Supplemental
Appendix to the First Circuit.
Remarkably, Fidelity laboriously argues that
Ms. Lawson is not a prevailing party, hoping to
divert the Court's attention from the argument in
the body of the petition.
Contrary to Fidelity's recounting, Ms. Lawson
in addition to making factual points to the courts
below, presented three strong legal arguments to the
First Circuit for attorney fees, under the appropriate
legal standards. " Whether attorney fees should be
awarded warrants review by this Appellate Court
8

under three standards: The Abuse of Discretion
standard, the Plain Error standard, and the
underlying legal analysis warrants a De Novo
Review standard."
The First Circuit turned a blind eye to the
factual points, and legal grounds presented in
Lawson's Opening and Reply briefs for a De Novo
Review of attorney fees, and the court's opinion on
the topic was conspicuously absent in their
judgment.
Fidelity's corruption of the Department of
Labor is an important and serious threat to the
democratic process of the United States, because
Fidelity's intervention fundamentally affected the
administration of justice. The seriousness of
Fidelity's section 1512(c)(2) violation qualifies as an
egregious act of corruption, and this perversion of
justice should not be swept under the rug, as Fidelity
hopes will be the outcome in this appeal.
The Lawson case, where this incident
occurred, is an appropriate vehicle for a ruling that
can proactively service future whistleblowers who
file legitimate claims with the government that are
then illegally circumvented.
The commission of this act, cost Ms. Lawson
her career, her life savings, and twelve years later
she is still seeking justice. However, the importance
of the Court addressing this particular issue, is not
that one employee constitutional right was violated,
but more importantly that the act did indeed
happen, and can happen again in the future, and,
similar to Ms. Lawson's circumstances, have
deleterious effects on employees who report serious
legitimate fraud to government authorities.
9

FOIA documents received by Ms. Lawson in
November 2018, provided substantive and
substantial evidence proving beyond a reasonable
doubt that Fidelity corrupted the Department of
Labor in 2007. These documents show that the
Department of Labor decided coverage of SOX for
Fidelity, and scheduled an investigation into Ms.
Lawson's claims, yet Fidelity was able to avoid any
investigation into Ms. Lawson's claims because of
their direct intervention.
An OSHA investigation could have ended the
Mass-Marketing Fraud described in the current
RICO Class Action Complaint. Therefore, Fidelity's
intervention not only impacted one individual, it
impacted millions of shareholders.
Fidelity's corruptive behavior is a deterrent
for any future Fidelity whistleblower because it
eliminates the recourse for whistleblowing protection
promised by Congress. Furthermore, it sends a
message that Fidelity whistleblowers will be
severely punished, which is evidenced by Fidelity's
declaration that Ms. Lawson "threw away her
career" by becoming a whistleblower; a steep price
for any employee to pay.
Fidelity neither deny nor dispute the political
corruption claim which is a listed predicate offense
in the RICO Class Action Complaint as a violation of
1512(c)(2) of title 18 of the U.S. Code. Fidelity
instead argues that the complaint is barred by res
judicata and Statute of Limitations.
The Seventh Circuit Court of Appeals in

DeGuelle v. Camilli, 664 F.3d 192 (2011), in
circumstances similar to Lawson, stated: "When an
employer retaliates against an employee, there is
10

always an underlying motivation" and "Retaliatory
acts are inherently connected to the underlying
wrongdoing exposed by the whistleblower." Deguelle
at 201.
In Lawson's case the motivation that caused
Fidelity to corrupt a government agency is the
billions of dollars stolen from millions of
shareholders through the Mass-Marketing Fraud
that Fidelity still continues to operate under
concealment.
Fidelity went to great lengths to shut this case
down, and cover-up fraud. In addition to perversion
of justice, Fidelity's 99 pages, 2,417 entries Privilege
Log for Lawson litigation lists forty internal and
external attorneys' "Reflection of attorney's mental
impressions of Lawson's internal complaints."
Only this Court, at this opportune time, can
redress the miscarriage of justice depicted in the two
questions posited to the Court, which are important,
not only to one individual; Ms. Lawson, but to all
potential whistleblowers, and millions of mutual
fund shareholders. As such, the two questions
presented warrant review.

11

CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
JACKIE HOSANG LAWSON, Pro Se
27 Kilsyth Road
Brookline, MA 02445
(617) 739-4088
jackielaw88@comcast.net
Dated: August 08, 2019

12

